September 18, 2020

Robert B Mitchell
rob.mitchell@klgates.com

Via U.S. mail and ECF Filing

T +1 206 370 7640
F +1 206 623 7022

Mr. Scott S. Harris
Clerk of the Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Jeff Schulz, et al. v. Presbytery of Seattle, et al., Case No. 20-261

Dear Mr. Harris:
I represent the respondents (The Presbytery of Seattle, The First Presbyterian Church of Seattle,
Robert Wallace, and William Longbrake) in No. 20-261. Petitioners Jeff Schulz, et al. filed their
petition for a writ of certiorari on August 28, 2020, and our response is due October 2, 2020.
In accordance with Rule 30.4, we respectfully request a 31-day extension of the current October
2 deadline, which would make our brief in opposition due on or before Monday, November 2,
2020. We have been asked for (and have granted) consent to the filing of an amicus curiae brief
in support of petitioners. We inquired of counsel for the prospective amicus when we should
expect to receive that brief, and we were told that it would be filed on or before October 2. We
need an extension of the same October 2 deadline to address any arguments raised in the amicus
brief(s) in our brief in opposition.
In addition to the need to respond to the arguments contained in amicus brief(s), both I and my
co-counsel for respondents, while working diligently on our response to the petition, have had
other obligations, including oral arguments for each of us this month.
If you have any questions, please let me know. Thank you very much.
Very truly yours,

Robert B Mitchell

cc:

Peter A. Talevich

K&L GATES LLP
925 FOURTH AVENUE SUITE 2900 SEATTLE WA 98104-1158
T +1 206 623 7580 F +1 206 623 7022 klgates.com
703399465 v1

CERTIFICATE OF SERVICE
As a member of the Supreme Court bar, and as required by Rules 29.5 and 30.4, I certify that I
served copies of this letter by U.S. Mail on September 18, 2020, on the following:
Steffen N. Johnson
Paul N. Harold
Wilson Sonsini Goodrich & Rosati, PC
1700 K Street, NW
Washington, DC 20006
(202) 973-8888
Michael W. McConnell
Wilson Sonsini Goodrich & Rosati, PC
650 Page Mill Road
Palo Alto, CA 94304
(650) 849-3135
Counsel for Petitioners
\

In addition, I sent electronic copies of this letter on September 18, 2020, to the following
addresses:
sjohnson@wsgr.com
pharold@wsgr.com
MMcConnell@wsgr.com

Robert B. Mitchell
K&L Gates LLP
Counsel for Respondents

2
703399465 v1

September 18, 2020

CORPORATE DISCLOSURE STATEMENT
The Presbytery of Seattle and The First Presbyterian Church of Seattle, respondents before this
Court, are Washington nonprofit corporations. They do not issue stock and have no parent
corporations.

3
703399465 v1

September 18, 2020

